                                                               Issue Date
                                                                        April 2, 2007
                                                               Audit Report Number
                                                                            2007-NY-1004




TO:        Mirza Negron Morales, Director, Office of Public Housing, 2APH


FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT:   Family Self-Sufficiency and Section 8 Program Weaknesses at the City of
           Poughkeepsie, Poughkeepsie, New York


                              HIGHLIGHTS

 What We Audited and Why

           We audited the City of Poughkeepsie’s (auditee) Family Self-Sufficiency
           and Section 8 programs at the request of the U.S. Department of Housing
           and Urban Development’s (HUD) director of public housing, New York
           field office, who had concerns about missing program escrow accounts and
           the use of Section 8 administrative fee reserves.

           The audit objectives were to determine whether the auditee (1) properly
           calculated and funded Family Self-Sufficiency program participant escrow
           account amounts, (2) administered the Family Self-Sufficiency program in
           accordance with HUD rules and regulations, and (3) adequately accounted
           for and disbursed Family Self-Sufficiency and Section 8 program funds.

 What We Found
           The auditee did not establish and properly fund escrow accounts for its 29
           Family Self-Sufficiency program participants as required by regulations.
           Specifically, (1) an escrow account was not funded and credited with
           income, (2) escrow amounts were not calculated correctly, (3) escrow
           payments were made from Section 8 administrative fee reserves, and (4)
           escrow funds forfeited by participants who did not graduate from the
           program were not deposited to the auditee’s operating reserve. As a result,
           nine current program participants are owed $81,641 plus interest, $53,288 is
           owed to the auditee’s Section 8 administrative fee reserves for escrow
           disbursements made to participants from these reserves, and the auditee’s
           operating reserve was deprived of $27,768 from forfeited escrow funds.

           The auditee had weaknesses in the operation of its Family Self-Sufficiency
           program. It did not (1) comply with its program administrative plan
           pertaining to program size and administration, (2) always ensure that
           contracts of participation were properly executed, and (3) establish criteria
           to adequately measure participant accomplishments. Consequently, the
           effectiveness of the program may have been compromised.

           Weaknesses also existed in the auditee’s financial management controls
           over its Section 8 program. Specifically, the auditee (1) lacked a proper
           plan to allocate administrative expenses to the Section 8 program, resulting
           in $750,000 in unsupported and $32,400 in excessive administrative costs,
           and (2) did not maintain adequate accounting records for its Section 8
           administrative fees.

What We Recommend
           We recommend that the director of the New York City Office of Public
           Housing instruct the auditee to (1) fund its recently established bank account
           for participant-earned escrow amounts with $81,641 plus interest due
           current participants, (2) credit its Section 8 administrative fee reserve for the
           $53,288 disbursed to program participants, (3) credit its operating reserve
           for the $27,768 in escrow plus interest that was forfeited by prior
           participants, (4) institute controls to ensure that program administrative
           requirements are properly implemented, and (5) document the basis for the
           $750,000 in unsupported administrative expenses charged to the Section 8
           program and reimburse $32,400 in excessive audit costs.

           For each recommendation without a management decision, please respond
           and provide status reports in accordance with HUD Handbook 2000.06,
           REV-3. Please furnish us copies of any correspondence or directives issued
           because of the audit.

Auditee’s Response
           We discussed the contents of the report with the auditee during the audit,
           and provided them with a copy of the draft report on March 12, 2007. We
           held an exit conference on March 23, 2007, and received their written
           comments on March 27, 2007. The auditee generally agreed with our
           findings and has initiated corrective action to respond to the



                                           2
recommendations. The complete text of the auditee’s response, along with
our evaluation of that response, can be found in appendix B of this report.




                              3
                           TABLE OF CONTENTS



Background and Objectives                                                           5



Results of Audit
      Finding 1: The Auditee Did Not Properly Establish and Fund Escrow Account
                 Amounts                                                            6

      Finding 2: The Auditee’s Family Self-Sufficiency Program Had Administrative   10
                 Weaknesses

      Finding 3: The Auditee’s Section 8 Program Had Financial Management           14
                 Control Weaknesses

Scope and Methodology                                                               17

Internal Controls                                                                   18


Appendixes

   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                20

   B. Auditee Comments and OIG’s Evaluation                                         21

   C. Schedule of Participant Escrow Balances as of June 30, 2006                   26




                                          4
                   BACKGROUND AND OBJECTIVES

The City of Poughkeepsie’s (auditee) Office of Property Development administers the
Section 8 Housing Choice Voucher program for residents of Poughkeepsie, New York. In
May 1994, the auditee developed an action plan to administer the Family Self-Sufficiency
program. The objective of the Family Self-Sufficiency program is to assist families in
obtaining employment that will allow them to become self-sufficient; that is, to achieve
economic independence. The program is voluntary and open to families participating in
the Section 8 program who are unemployed or underemployed.

Families entering the Family Self-Sufficiency program execute a contract of participation
and work with a case manager to develop a service plan, which details goals that, over a
five-year period, will lead to self-sufficiency. These goals may include education,
specialized training, job references, job payment activities, and career advancement
objectives.

A key feature of the Family Self-Sufficiency program is that, although a participant’s
family share of the Section 8 rent resulting from increases in the family’s earned income
may change, the amount of the housing assistance payment requisitioned from the U.S.
Department of Housing and Urban Development (HUD) is not changed. Rather, the excess
housing assistance payment requisitioned should be deposited into an escrow account on
behalf of the participant. Upon successful completion of the program contract, the
participant is entitled to receive the excess housing assistance payment amount placed in
escrow plus interest. To graduate successfully, participants must become employed, be
free of welfare assistance for at least 12 months, and substantially achieve the goals in their
service plan. If the participant does not successfully complete the contract or withdraws
from the program, the amount in escrow plus interest is forfeited to the administering
agency.

The auditee initiated its Family Self-Sufficiency program in 1997 with 29 participating
families. Since that time, 16 participants have voluntarily withdrawn or been terminated
from the program. During our audit period, there were 13 active participants, two of whom
recently graduated from the program.

Our audit objectives were to determine whether the auditee (1) properly calculated and
funded Family Self-Sufficiency program participant escrow amounts, (2) administered the
Family Self-Sufficiency program in accordance with HUD rules and regulations, and (3)
adequately accounted for and disbursed Family Self-Sufficiency and Section 8 program
funds.




                                               5
                             RESULTS OF AUDIT

Finding 1: The Auditee Did Not Properly Establish and Fund
           Escrow Account Amounts
The auditee did not establish and properly fund escrow accounts for its 29 Family Self-
Sufficiency program participants as required by regulations. Specifically, (1) an escrow
account was not funded and credited with income, (2) escrow amounts were not calculated
correctly, (3) escrow payments were made from Section 8 administrative fee reserves, and
(4) escrow funds forfeited by participants who did not graduate from the program were not
deposited to the auditee’s operating reserve. This occurred because the auditee was
unfamiliar with the program regulations and therefore did not implement adequate controls.
Consequently, nine current program participants are owed $81,641 plus interest, $53,288 is
owed to the auditee’s Section 8 administrative fee reserves for escrow disbursements made
to participants from these reserves, and the auditee’s operating reserve was deprived of
$27,768 from forfeited escrow funds. In addition, two participants were overpaid $971 and
one participant was underpaid $16 upon completing the program and receiving their
escrow.


 The Auditee Did Not Establish
 and Fund Participant Escrow
 Accounts

              The auditee did not establish and fund an interest-bearing account for the
              receipt of participant escrow amounts. Regulations at 24 CFR [Code of
              Federal Regulations] 984.305(a) provide that Family Self-Sufficiency
              program participant escrow funds should be deposited into a single depository
              account invested in one or more HUD-approved investments. Based upon our
              review, the auditee established a bank account for escrow deposits but not until
              September 2006 after we brought it to their attention.

              Escrow accounts should be funded with Section 8 housing assistance payment
              funds as participants’ earned income increases. HUD program guidance in the
              Housing Choice Voucher Program Guidebook, 7420.10g, section 23.5,
              provides that when a program participant’s earned income results in an
              increased total tenant payment, which reduces the housing assistance payment
              needed, the program administrator should not reduce its housing assistance
              requisition. Rather, the difference between the housing assistance payment
              requisitioned and that paid to the landlord represents the funds that should be
              credited to the participant’s escrow account. However, the auditee reduced the
              amount of the housing assistance payment requisitioned from HUD and
              increased the tenant payment to the participants’ landlord as rent, rather than
              setting aside these funds for participants’ escrow. Consequently, no funds
              were available to fund the escrow accounts.

                                             6
           Auditee officials stated that they were unaware that housing assistance
           payment requisitions should not have been reduced. Nevertheless, in June
           2006, the auditee began to properly requisition funds from HUD as it
           appropriately drew down $2,547 to fund its escrow account. However, the
           auditee did not place these funds into its escrow bank account until
           September 2006.

           Our review of case files for 13 active participants disclosed that $120,640
           plus interest (see appendix C) should have been deposited as escrow for 11
           of these participants through June 30, 2006. The remaining two participants
           had not yet earned any escrow. To obtain the correct amount of escrow that
           needed to be funded, we reduced the $120,640 (Office of Inspector General
           (OIG)-calculated June 2006 balance) by the above $2,547 that the auditee
           deposited in September 2006 and $37,866 that was disbursed from the
           auditee’s Section 8 administrative fee reserves related to 2 of 11 participants
           who graduated from the program during the audit period (see footnotes 1
           and 2 of appendix C). In addition, while the auditee requisitioned funds for
           escrow for September through November 2006, the required deposits for
           these months, totaling $1,414, were never made to the auditee’s escrow
           account; therefore, we added these funds to the balance. Accordingly, the
           remaining nine active participants’ escrow bank accounts should be funded
           for $81,641 ($120,640 - $2,547 - $37,866 + $1,414).


The Auditee Did Not Credit
Escrow Accounts with Interest

           HUD program guidance in the Housing Choice Voucher Program Guidebook,
           7420.10g, section 23.5, requires that interest be credited to each participant’s
           account at least annually. While the auditee maintained an individual ledger
           account to track the amount that each participant should have earned in
           escrow, it did not credit these accounts with interest that should have been
           earned on the amounts. Therefore, the above active program participant
           balance, amounts disbursed to prior participants, and amounts forfeited should
           be credited with interest earned.

The Auditee Incorrectly
Calculated Escrow Amounts

           While the auditee did not establish and fund participant escrow balances, it did
           maintain records to track participants’ escrow balances. However, it computed
           escrow balances incorrectly for 17 of the 29 participant case files reviewed.
           Ten participant escrow accounts were understated by $4,907, and seven
           participant escrow accounts were overstated by $18,173 as of June 30, 2006
           (see appendix C). These included a participant who was overpaid $960 upon
           transferring to another entity’s program and two recent graduates, one of

                                          7
             whom was overpaid $11 and another who was underpaid $16, resulting in a
             net erroneous disbursement of $955.

             These errors were attributed to control weaknesses that caused the auditee to
             use incorrect figures and perform mathematical errors when calculating the
             total tenant payment from which the escrow credit amount is derived.
             Examples of these errors included incorrectly counting sporadic income as
             earned income, failing to reconcile a discrepancy between income status as
             reported by the participant and that obtained from a verification of
             employment, and overlooking changes in income.


Administrative Reserves Used
to Pay Escrow and Operating
Reserves Were Deprived of
Forfeited Funds

             Since the auditee did not requisition additional subsidy to fund an escrow
             account, disbursements for interim or final escrow distributions to program
             participants were made from the auditee’s Section 8 administrative fee
             reserves. These disbursements totaled $53,288, consisting of $15,422 interim
             distributions to five participants and $37,866 disbursed to two graduates as
             described above. Accordingly, the auditee needs to replace these funds into its
             administrative fee reserve account.

             Because it did not properly fund an escrow account, the auditee also did not
             appropriately administer forfeited funds. Regulations at 24 CFR [Code of
             Federal Regulations] 984.305 provide that if a participant withdraws or is
             terminated from the Family Self-Sufficiency program, any escrow funds
             accumulated are forfeited and credited to the administering agency’s
             operating reserve account and counted as other income. For 14 of 16 case
             files reviewed, related to inactive participants who were either terminated or
             voluntarily withdrew from the program, escrow amounts of $27,768 plus
             interest should have been earned while these participants were in the Family
             Self-Sufficiency program. Of the remaining two participants, one
             participant was paid an interim escrow amount, and the other participant did
             not realize an increase in income sufficient to earn any escrow.
             Consequently, the $27,768 plus interest should have been transferred to the
             auditee’s operating reserve account.

Conclusion

             Control weaknesses in the operation of its Family Self-Sufficiency program
             caused the auditee to not establish and fund participants’ escrow accounts
             and to incorrectly calculate escrow amounts earned. The establishment and
             funding of these accounts should have provided escrow funds of $81,641

                                            8
          plus interest to currently active participants, $53,288 should not have been
          disbursed from the auditee’s Section 8 administrative fee reserves, and
          $27,768 plus interest should have been credited to the auditee’s operating
          reserve account for amounts forfeited by terminated and withdrawn
          participants during the audit period.

Recommendations

          We recommend that the director of the New York Office of Public Housing
          instruct the auditee to

          1A      Fund the escrow account for the $81,641 plus interest due current
                  participants as of November 2006. These payments should come
                  from nonfederal sources.

          1B      Develop procedures that will ensure that interest earned is properly
                  credited to active participant escrow amounts on at least a quarterly
                  basis.

          1C      Recoup $971 ($960 + $11) from the overpaid participants and
                  reimburse $16 to the underpaid participant.


          1D      Fund its administrative fee reserves for the $53,288 disbursed as
                  interim and final payouts to participants. These payments should
                  come from nonfederal sources.

          1E      Fund its operating reserve for the $27,768 plus interest in escrow
                  funds it was deprived of related to the amounts forfeited by the 14
                  terminated and withdrawn participants. These payments should
                  come from nonfederal sources.

          1F      Strengthen controls to ensure that escrow accounts are properly
                  calculated and funded for current and future Family Self-Sufficiency
                  program participants.




                                         9
Finding 2: The Auditee’s Family Self-Sufficiency Program Had
           Administrative Weaknesses

The auditee had weaknesses in the operation of its Family Self-Sufficiency program. It did
not (1) comply with its program administrative plan pertaining to program size and
administration, (2) always ensure that contracts of participation were properly executed,
and (3) establish criteria for measuring participant accomplishments. These deficiencies
occurred because the auditee did not implement controls over the operation of its program
to ensure compliance with HUD requirements. Consequently, the effectiveness of the
program may have been compromised.


 Program Administrative
 Requirements Were Not Met
              The auditee did not comply with various administrative requirements of the
              Family Self-Sufficiency program. It did not maintain the required number
              of participants in the program, establish a program coordinating committee,
              and provide participants with a full accounting of their escrow account
              balances.

              The auditee’s Family Self-Sufficiency program action plan, dated May 31,
              1994, provided that the program would serve 25 participants. In addition,
              when the auditee contracted on May 29, 1997, with Hudson River Housing,
              a nonprofit agency, to serve as program coordinator, section A.1 of the
              contract specified that the contract administrator would provide intensive
              case management services to 25 households that met the eligibility standards
              for the program. However, during years 2000 through 2006, the number of
              participants ranged from a low of eight in 2000 to a high of 18 in 2004, and
              at no time during our audit period, did it serve 25 participants.

              The current program coordinator, who is the Section 8 administrator, stated
              that maintaining the required program size was difficult because of a lack of
              interest among Section 8 recipients. While HUD Housing Choice Voucher
              Guidebook, section 23.2, entitled “Lack of Family Interest,” states that
              every effort must be made to recruit participants for the program and that an
              exception to the number of required participants will not be granted due to a
              lack of family interest, a waiver can be sought. However, there was no
              evidence that the auditee requested such a waiver. Consequently, the
              auditee’s program continuously operated below its intended capacity
              without evidence of a waiver for such status.

              The auditee did not renew its program coordinator contract with Hudson
              River Housing after its expiration on December 31, 2005, because funds
              were not available in 2006 for the program coordinator grant. Since that
              time, the auditee’s Section 8 program administrator has been serving as the

                                            10
          Family Self-Sufficiency program coordinator. However, the program’s
          action plan provided that the Section 8 program administrator would assume
          responsibility for the administration of the program and that a family service
          coordinator would be retained as a consultant to manage the program’s day-
          to-day operations. Accordingly, since the program coordinator’s contract
          was not renewed, the current staffing does not meet the plan’s requirements.

          HUD Housing Choice Voucher Guidebook, 7420.10g, section 23.3, requires
          that a program committee be established to assist in securing commitments
          of public and private resources for developing and implementing the Family
          Self-Sufficiency program. This committee should include representatives
          from local government; Job Training Partnership programs funded by the
          U.S. Department of Labor; and service organizations such as welfare and
          employment agencies, public/private education or training institutions, child
          care providers, and private businesses. The auditee did not establish such a
          committee. Therefore, it lacked access to potentially valuable input that the
          various representatives required to be part of such a committee could have
          provided.

          Further, the auditee did not report escrow balances to the participants as
          required. HUD Housing Choice Voucher Guidebook, 7420.10g, section
          23.5, states that a report must be made to each participant at least annually
          on the escrow account, including the balance at the beginning of the
          reporting period, the amount credited during the period, any deductions
          made from the account, the amount of interest earned on the account, and
          the total in the account at the end of the reporting period. While participants
          were informed of the status of their accounts at least annually, the status did
          not include any applicable interest and was not in writing unless the
          participant requested it. Therefore, the auditee did not provide a full
          accounting of escrow amounts as required.

Participant Contracts Were Not
Always Properly Executed

          Contracts of participation were not executed within 120 days of the
          households’ most recent annual or interim certification for 10 participants.
          This was caused by weaknesses in the auditee’s program operations,
          permitting contract executions without timely certifications. HUD Housing
          Choice Voucher Program Guidebook, 7420.10g, section 23.4, states that the
          contract of participation must be executed no more than 120 days after the
          household’s most recent annual or interim reexamination. In one case, the
          effective date on the HUD Form 50058 was March 1, 1999; however, the
          effective date of the contract of participation was October 1, 1999, which is
          over the 120-day limit. In another case, an interim Section 8 recertification
          was not completed before the start of the contract on April 1, 2001. The
          auditee stated that a recertification was not done because there were no


                                        11
          changes in the participant’s wages. However, there was no documentation
          in the file to indicate that the participant’s wages had not changed.

          In addition, the auditee extended participant contracts without receiving a
          timely written request from participants or documenting such extensions in
          writing. Regulations at 24 CFR [Code of Federal Regulations] 984.303,
          entitled “Letter of Contract Extension,” state that the term of a contract of
          participation may be extended for a period not to exceed two years for any
          participant that requests an extension of the contract in writing, provided
          that good cause exists for granting the extension. For one participant, the
          auditee received and granted a written request for a one-year extension.
          However, the request was dated August 2, 2005, which was more than a
          year after the participant’s expected graduation date of September 30, 2004.
          In another case, the auditee extended the contract of participation two years
          without formal written documentation. The original expiration date of the
          contract was March 31, 2006, and the contract was extended to March 31,
          2008. The Section 8 coordinator stated that extensions were generally
          granted verbally.

Criteria to Measure Participant
Progress Were Not Specified

          The auditee did not develop specific criteria against which to measure
          participant progress toward self-sufficiency. As a result, participants appear
          to have been granted extensions of their contracts without good cause. As
          stated above, regulations provide that an extension for up to two years may
          be granted for “good cause.” The guidebook states that “good cause”
          includes circumstances beyond the control of the participant such as serious
          illness or involuntary loss of employment.

          All of the four extensions granted lacked documentation of good cause. The
          justifications given were for paying delinquent debts, needing more time to
          become self-sufficient and achieve stated goals, and being self-sufficient by
          the graduation date of the contract.

 Conclusion

          The auditee had administrative weaknesses in the operation of its Family
          Self-Sufficiency program because it did not implement controls over the
          operation of its program to ensure compliance with HUD requirements.
          Consequently, the effectiveness of the program may have been
          compromised.




                                        12
Recommendations


       We recommend that the director of the New York Office of Public Housing
       instruct the auditee to

       2A. Strengthen controls over program administration to ensure that the
           required program size is maintained and if not, that a waiver request is
           filed with HUD.

       2B. Establish a program coordinating committee as required and assess the
           need for a program coordinator. If it is determined that a program
           coordinator is not needed, amend the action plan to reflect that
           determination.

       2C. Provide a complete accounting of participant escrow account balances
           in writing at least annually.

       2D. Develop procedures to ensure that contracts of participation are
           executed no more than 120 days after the household’s most recent
           annual or interim reexamination.

       2E. Establish criteria upon which to grant extensions of participants’
           contract terms and ensure that written requests to extend contracts are
           obtained from participants.




                                    13
Finding 3: The Auditee’s Section 8 Program Had Financial
           Management Control Weaknesses
There were weaknesses in the auditee’s financial management controls over its Section 8
program. The auditee lacked support for administrative expenses allocated to the Section 8
program and did not maintain adequate accounting records to reconcile Section 8
administrative expense balances to those reported to HUD. These weaknesses occurred
because the auditee did not have adequate controls to ensure that it followed HUD
procedures. As a result, the Section 8 program was charged $750,000 in unsupported costs
and $32,400 in unreasonable expenses.


 Allocation of Administrative
 Expenses Was Not Supported

              HUD Housing Choice Voucher Program Guidebook, 7420.10 (g), section
              20.2, provides that Section 8 funds should be expended only for allowable
              program costs. However, the auditee did not maintain an allocation plan to
              adequately support administrative expenses charged to the Section 8
              program. During calendar years 2000 through 2005, the auditee charged
              $750,000 ($125,000 annually) to the Section 8 program as indirect expenses.
              An auditee official stated that this amount included a variety of costs,
              including an allocation of auditee officials’ salary and utility expenses.
              However, there was no basis for the allocation, and the official
              acknowledged that the amount was arbitrary. Accordingly, since we were
              not provided with adequate supporting documentation, the $750,000 is
              deemed unsupported.

              During the above-mentioned six-year period, the auditee also charged
              $54,000 to the Section 8 program for the cost of its annual financial audit
              ($9,000 annually x 6 years). The annual cost of the financial audit was
              $45,000; therefore, the auditee allocated 20 percent of this cost to the
              Section 8 program. However, it did not provide an adequate basis for
              allocating 20 percent of the cost to the Section 8 program.

              The Section 8 program accounted for approximately 8 percent of the
              auditee’s total revenue. Therefore, a more realistic allocation should have
              been $3,600 annually ($45,000 annual cost x 8 percent) or a total of $21,600
              during the six-year period ($3,600 x 6 years). Accordingly, the additional
              $32,400 charged to the Section 8 program for the cost of the financial audit
              appears to be unreasonable ($54,000 less $21,600) and should be
              reimbursed.

              In addition, officials of HUD’s Office of Public Housing wrote to the
              auditee on May 25, 2006, expressing concern about the audit coverage for


                                            14
           the Section 8 program for calendar year 2005. However, as of November
           2006, the auditee had not satisfactorily responded, and the final audit for
           calendar year 2006, which was due September 30, 2006, had not been
           finalized.
Weaknesses in Accounting for
Administrative Fee Reserves

           The auditee’s accounting for Section 8 administrative fee reserves also had
           weaknesses. Records were not maintained in accordance with HUD
           guidance and did not reconcile to information reported to HUD. HUD
           Housing Choice Voucher Guidebook, 7420.10g, chapter 20, section 2,
           provides that an administrative fee reserve account should be maintained
           and credited with the amount by which the total administrative fees earned
           and interest earned on the reserve account exceeds the actual administrative
           expenses incurred during any given fiscal year. The guidebook further
           provides that a complete and accurate set of books and supporting records
           should be established and maintained so that speedy and effective auditing is
           possible. The auditee did not maintain an administrative fee reserve account
           as part of its general ledger and could not readily identify the amount of
           such reserves in its bank records.

           In addition, as shown in the table below, expenses charged to the Section 8
           administrative fee reserves did not reconcile to those reported to HUD.
           Consequently, we were unable to determine whether Section 8
           administrative fees were used for other than allowable Section 8 purposes.


              Fiscal    Expenses in        Expenses        Over (under)-
              year      books              reported to HUD reporting

              2005           $ 416,071             $ 406,136            ($9,935)
              2004              432,239              489,351              57,112
              2003              398,084              420,775              22,691
              2002              435,262              421,587            (13,675)
              2001              434,545              387,122            (47,423)
              2000              486,403              305,345           (181,058)
              Total          $2,602,604           $2,430,316          ($172,288)
           Further, the administrative fee reserve balance reported to HUD did not
           reconcile to the activity reported to HUD. For instance, based upon the
           difference between the amount of expenses reported to HUD and the fees
           disbursed to the auditee, the auditee should have had an administrative fee
           reserve balance of $105,594 for program year 2005. However, the auditee
           reported a balance of $594,343 to HUD. Thus, the auditee neither provided
           a complete accounting for its administrative fee reserves nor provided
           support for the balances reported to HUD.


                                          15
Conclusion
         The auditee lacked support for administrative expenses allocated to its
         Section 8 program as reported to HUD. As a result, the Section 8 program
         was charged $750,000 in unsupported costs and $32,400 in unreasonable
         expenses.

Recommendations

         We recommend that the director of the New York Office of Public Housing
         instruct the auditee to

         3A     Document the basis for the $750,000 in unsupported administrative
                expenses charged to the Section 8 program and reimburse any
                amounts determined to be unreasonable.

         3B     Reimburse the Section 8 program for the $32,400 in
                excessive/unreasonable audit costs.

         3C     Develop controls to establish a cost allocation plan that ensures
                administrative costs are adeqautely supported, and obtain approval
                from the cognizant auditee agency for any indirect costs charged to
                the Section 8 program.

         3D     Strengthen controls to ensure that required audits are submitted in a
                timely manner, and respond to the HUD field office’s concern about
                the scope of Section 8 audit coverage for calendar year 2005 and
                provide an explanation for the delay or promptly submit the Section
                8 program audit for calendar year 2006 to HUD.

         3E     Provide a reconciliation for the difference between the Section 8
                administrative fee expenses reported to HUD and disbursed
                according to its records.

         3F     Develop procedures that will ensure that accounting records are
                properly maintained to account for Section 8 adminsitrative fees in
                accordance with HUD guidance.




                                      16
                      SCOPE AND METHODOLOGY

Our audit encompassed the auditee’s administration of its Family Self-Sufficiency program
and part of its Section 8 program during the period January 2000 through June 30, 2006. We
extended the period as necessary to follow up on outstanding issues.

To accomplish our objectives, we reviewed applicable laws and regulations pertaining to the
auditee’s Family Self-Sufficiency and Section 8 Housing Choice Voucher programs. We
reviewed HUD program requirements for the Family Self-Sufficiency program at 24 CFR
[Code of Federal Regulations] Part 984 and HUD’s Housing Choice Voucher Guidebook,
7420.10.

We obtained and analyzed the auditee’s Family Self-Sufficiency program plan, dated May
31, 1994, and its contract for a program coordinator with Hudson River Housing. We also
reviewed the auditee’s financial records, such as audited financial statements for the
periods ending December 31, 2002 through 2005, general ledgers, bank statements, and
cancelled checks pertaining to the Family Self-Sufficiency program and Section 8
administrative fee expenses.

We interviewed the auditee’s finance and program staff, to obtain an understanding of its
Family Self-Sufficiency program operations and controls, and obtained information from
HUD headquarters and field office staff relative to program regulations. We also
interviewed the contract program coordinator.

We reviewed 29 Family Self-Sufficiency program participant files and records maintained
by the auditee, consisting of 13 active and 16 inactive program participants during our audit
period. For each of the participants, we verified that the participant was eligible for the
program and recalculated the amount of escrow that each participant should have earned.
When applicable, we obtained verifications of employment to ensure that the total tenant
payment was accurate. We also reviewed the participants’ files to determine the type of
services provided to the participants, that service plan extensions were properly granted and
documented, and that terminations and escrow payouts were in accordance with
regulations.

In addition, we examined part of the Section 8 program; we selected a nonstatistical sample
of Section 8 administrative fee disbursements to review and assess the reasonableness and
allowability of the expenses.

We conducted our audit at the City of Poughkeepsie’s Office of Property Development in
Poughkeepsie, New York, during the period June through November 2006. We performed
our review in accordance with generally accepted government auditing standards.




                                             17
                           INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls


               We determined the following internal controls were relevant to our audit
               objectives:

               •      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

               •      Validity and reliability of data – Policies and procedures that
                      management has implemented to reasonably ensure that valid and
                      reliable data are obtained, maintained, and fairly disclosed in reports.

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               •      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded
                      against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if management controls do not provide
               reasonable assurance that the process for planning, organizing, directing, and
               controlling program operations will meet the organization’s objectives.




                                              18
Significant Weaknesses


           Based on our review, we believe the following item is a significant weakness:

           •      The auditee lacked adequate procedures and related controls to ensure
                  that escrow funds were established, funded, and properly calculated
                  and to ensure that the administrative and financial requirements of the
                  Family Self-Sufficiency and Section 8 programs were properly
                  implemented (see findings 1, 2, and 3).




                                         19
Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

 Recommendation           Ineligible 1/    Unsupported      Unreasonable or       Funds to be put
        number                                      2/       unnecessary 3/        to better use 4/

              1A                                                                   $81,641
              1C                                                                   $53,288
              1D                                                                   $27,768
              1E             $971
              3A                            $750,000
              3B          ____ _                                $32,400
     Total                 $971             $750,000            $32,400           $162,697

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or federal, state,
     or local polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured
     program or activity when we cannot determine eligibility at the time of audit.
     Unsupported costs require a decision by HUD program officials. This decision, in
     addition to obtaining supporting documentation, might involve a legal interpretation
     or clarification of departmental policies and procedures.

3/   Unreasonable/unnecessary costs are those costs not generally recognized as
     ordinary, prudent, relevant, and/or necessary within established practices.
     Unreasonable costs exceed the costs that would be incurred by a prudent person in
     conducting a competitive business.

4/   Recommendations that funds be put to better use are estimates of amounts that
     could be used more efficiently if an OIG recommendation is implemented. This
     includes reductions in outlays, deobligation of funds, withdrawal of interest subsidy
     costs not incurred by implementing recommended improvements, avoidance of
     unnecessary expenditures noted in preaward reviews, and any other savings which
     are specifically identified. In this instance, if the auditee establishes the escrow
     account and reimburses or credits its Section 8 administrative fee reserves from
     nonfederal funds and establishes proper procedures for funding the escrow, it will
     have funds available to pay graduating participants and increase its operating
     reserves and will not unnecessarily deplete its administrative fee reserves.




                                            20
Appendix B

AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                        21
Appendix B



Ref to OIG Evaluation   Auditee Comments




Comment 2




                        22
Appendix B


Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 2




                        23
Appendix B


Ref to OIG Evaluation   Auditee Comments




Comment 3




                        24
Appendix B
                   OIG Evaluation of Auditee Comments

Comment 1   The auditee took action in June 2006 to correctly requisition housing
            assistance payments from HUD in order to have funds available to properly
            fund participants’ escrow accounts. However, the funds were not always
            deposited to the account established for such purposes. Accordingly, HUD
            needs to ensure that the auditee has implemented procedures to properly
            deposit the funds to participants’ accounts.

Comment 2   The auditee’s comments are responsive to our recommendations.

Comment 3   The auditee states that it accurately reported expenses charged to the Section 8
            program. Specifically, it reported $489,351 as Section 8 administrative
            expenses for fiscal year 2004 on the HUD form 52681. However, this figure
            includes a charge entitled “Contracted Services–Other (FSS coordinator),”
            which was funded by a separate grant and reported independently, and an
            amount entitled “Direct Salary Allocation,” which was a budgeted amount
            rather than an actual expense charged. Further, the auditee did not provide a
            reconciliation for fiscal years 2000 through 2003 and 2005. Therefore, the
            auditee needs to provide HUD with a reconciliation of its Section 8
            administrative expenses claimed and develop procedures to properly account
            for and report these expenses.




                                           25
Appendix C

     SCHEDULE OF PARTICIPANT ESCROW BALANCES
                 AS OF JUNE 30, 2006
             Participant         Status         Auditee             OIG         Understated      Overstated
                                                balance          balance
          1                   Active              $ 2,361           $ 2,361            $ -0-
          2                   Active               35,296            35,496             (200)
          3                   Active               28,814        1/ 30,724            (1,910)
          4                   Active                   -0-               -0-              -0-
          5                   Active               15,530            15,587              (57)
          6                   Active                 - 0-               377             (377)
          7                   Active                8,835             8,451                              384
          8                   Active                6,189             6,261               (72)
          9                   Active               23,187        2/   7,147                           16,040
          10                  Active               10,220            10,170                               50
          11                  Active                3,858             3,582                              276
          12                  Active                  488               484                                4
          13                  Active                   -0-             -0-                -0-
          Total active                          $134,778          $120,640           ($2,616)       $16,754

          1                   Inactive            $ 1,409          $ 1,409             $ -0-
          2                   Inactive               9,693            9,875             (182)
          3                   Inactive          3/   5,944            4,984                              960
          4                   Inactive                  24               24                -0-
          5                   Inactive               1,417            1,417                -0-
          6                   Inactive                  56               76               (20)
          7                   Inactive               7,755            7,767               (12)
          8                   Inactive               1,061            1,061                -0-
          9                   Inactive                 797              338                              459
          10                  Inactive               1,071            1,071               -0-
          11                  Inactive                 998              998               -0-
          12                  Inactive               1,365            1,365               -0-
          13                  Inactive                 290              290               -0-
          14                  Inactive                  -0-            -0-                -0-
          15                  Inactive                  -0-           1,199           (1,199)
          16                  Inactive                  -0-             878             (878)
          Total inactive                          $ 31,880         $ 32,752           $2,291          $1,419
          Grand Total                                                                 ($4,907)        $18,173
1/ Participant was paid $30,708, a $16 underpayment, upon graduation.
2/ Participant was paid $7,158, an $11 overpayment, upon graduation.
3/ Participant received a $5,944 interim payout, a $960 overpayment, and transferred to another authority.



                                                     26
